    DEPARTMENT OF HEALTH & HUMAN SERVICES                                         Office of Inspector General


                                                                                  Region IX
                                                                                  Office of Audit Services
                                                                                         h
                                                                                  90 - i Street, Suite 3-650
                                                                                  San Francisco, CA 94103
 MAY 01 2009

Report Number: A-09-09-00050

Mr. Bruce Lamoureux
Administrator
Providence Alaska Medical Center
P.O. Box 196604
Anchorage, Alaska 99519-6604

Dear Mr. Lamoureux:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled "Review of Oxaliplatin Billing at Providence Alaska Medical
Center for Calendar Year 2005." We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
available to the public to the extent that information in the report is not subject to exemptions in
the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please call Tom Lin, Senior Auditor, at
(415) 437-8374 or Alice Norwood, Audit Manager, at (415) 437-8360. Please refer to
report number A-09-09-00050 in all correspondence.

                                               Sincerely,



                                              Lori A. Ahlstrand
                                              Regional Inspector General
                                               for Audit Services


Enclosure
Page 2   Mr. Bruce Lamoureux


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations (CFMFFSO)
Centers for Medicare & Medicaid Services
601 East 1ill Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services

             OFFICE OF

        INSPECTOR GENERAL





           EVIE OF
    OXALIPLATIN BILLING AT
        OVIDENCE    KA

       MEDICAL CENTER

   FOR C ENDAR YEAR 2005





                    Daniel R. Levinson

                     Inspector General


                        May 2009

                      A-09-09-00050

                    Office ofInspector General
                                      http:// oig.hhs.gov



The mission ofthe Office ofInspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments ofHHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office ofInvestigations
The Office ofInvestigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, 01 utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of 01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office ofCounsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY


BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. Medicare uses an outpatient prospective payment system to pay for hospital outpatient
serVices.

Oxaliplatin is a chemotherapy drug used to treat colorectal cancer. From July 1,2003, through
December 31, 2005, Medicare required hospital outpatient departments to bill one service unit
for each 5 milligrams of oxaliplatin administered.

Providence Alaska Medical Center (Providence Alaska) is an acute-care hospital located in
Anchorage, Alaska. We reviewed payments to Providence Alaska for oxaliplatin provided to
Medicare beneficiaries during calendar year (CY) 2005.

OBJECTIVE

Our objective was to determine whether Providence Alaska billed Medicare for oxaliplatin in
accordance with Medicare requirements.

SUMMARY OF FINDING

During CY 2005, Providence Alaska did not bill Medicare in accordance with Medicare
requirements for the one oxaliplatin outpatient claim that we reviewed. Providence Alaska billed
Medicare for an incorrect number of service units for that claim and received an overpayment of
$31,098. The overpayment occurred because the hospital did not follow established procedures
to ensure the proper billing of oxaliplatin.

RECOMMENDATIONS

We recommend that Providence Alaska:

   l&   refund the $31,098 for the identified overpayment to the fiscal intermediary and

   l&   ensure that service units of drugs billed correspond to units of drugs administered.

PROVIDENCE ALASKA COMMENTS

In its comments on our draft report, Providence Alaska concurred with our recommendations.
Providence Alaska stated that the fiscal intermediary had processed and recouped the identified
overpayment. In addition, Providence Alaska stated that it had put procedures in place to ensure
that service units of drugs billed correspond to units of drugs administered. Providence Alaska's
comments are included in their entirety as the Appendix.
                            TABLE OF CONTENTS



INTRODUCTION                                     1


     BACKGROlJND                                 1

         Outpatient Prospective Payment System   1

         Oxaliplatin                             1

         Providence Alaska Medical Center        1


     OBJECTIVE, SCOPE, AND METHODOLOGY           1

          Objective                              1

          Scope                                  1

          Methodology                            2


FINDING AND RECOMMENDATIONS                      2


     MEDICARE REQUIREMENTS                       2


    INCORRECT NUMBER OF SERVICE UNITS BILLED     3


    RECOMMENDATIONS                              3


    PROVIDENCE ALASKA COMMENTS                   3


APPENDIX


    PROVIDENCE ALASKA COMMENTS





                                       11
                                      INTRODUCTION


BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Outpatient Prospective Payment System

Pursuant to the Balanced Budget Act of 1997, P.L. No. 105-33, CMS implemented an outpatient
prospective payment system (OPPS) for hospital outpatient services. The OPPS applies to
services furnished on or after August 1,2000.

Under the OPPS, Medicare pays for services on a rate-per-service basis using the ambulatory
payment classification group to which each service is assigned. The OPPS uses the Healthcare
Common Procedure Coding System (HCPCS) to identify and group services into an ambulatory
payment classification group.

Oxaliplatin

Oxaliplatin is a chemotherapy drug used to treat colorectal cancer. From July I, 2003, through
December 31, 2005, Medicare required hospital outpatient departments to bill one service unit
for each 5 milligrams of oxalip1atin administered.

Providence Alaska Medical Center

Providence Alaska Medical Center (Providence Alaska) is an acute-care hospital located in
Anchorage, Alaska. Providence Alaska's Medicare claims are processed and paid by Noridian
Administrative Services, the fiscal intermediary.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Providence Alaska billed Medicare for oxaliplatin in
accordance with Medicare requirements.

Scope

We identified and reviewed one claim for which Providence Alaska billed HCPCS code cn05
for more than 100 service units of oxaliplatin and received a Medicare payment of $33,308 for
oxaliplatin furnished to a hospital outpatient during calendar year (CY) 2005.

We limited our review of Providence Alaska's internal controls to those applicable to billing for
oxaliplatin services because our objective did not require an understanding of all internal
controls over the submission of claims. Our review allowed us to establish reasonable assurance
of the authenticity and accuracy of the data obtained from CMS's National Claims History file
for CY 2005, but we did not assess the completeness of the file.

We performed our audit from December 2008 through March 2009.

Methodology

To accomplish our objective, we:

   4&	   reviewed applicable Medicare laws, regulations, and guidance;

   •	 used CMS's National Claims History file for CY 2005 to identify Medicare claims for
      which Providence Alaska billed at least 100 service units of oxaliplatin under HCPCS
      code Cn05 and received Medicare payments for those units;

   •	 contacted Providence Alaska to determine whether the identified oxa1iplatin services
      were billed correctly and, if not, why the services were billed incorrectly;

   CD    obtained and reviewed records from Providence Alaska that supported the identified
         claim; and

   e	    calculated the overpayment using corrected payment information processed by Noridian
         Administrative Services.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATIONS

During CY 2005, Providence Alaska did not bill Medicare in accordance with Medicare
requirements for the one oxaliplatin outpatient claim that we reviewed. Providence Alaska billed
Medicare for an incorrect number of service units for that claim and received an overpayment of
$31,098. The overpayment occurred because the hospital did not follow established procedures
to ensure the proper billing of oxaliplatin.




                                                2

MEDICARE REQUIREMENTS

Section 9343(g) of the Omnibus Budget Reconciliation Act of 1986, P.L. No. 99-509, requires
hospitals to report claims for outpatient services using HCPCS codes. CMS's "Medicare Claims
Processing Manual," Pub. No.1 00-04, chapter 4, section 20.4, states: "The definition of service
units ... is the number of times the service or procedure being reported was performed." In
addition, chapter 1, section 80.3.2.2, of this manual states: "In order to be processed correctly
and promptly, a bill must be completed accurately."

Through CMS Transmittal A-03-051, Change Request 2771, dated June 13,2003, CMS
instructed hospital outpatient departments to bill for oxaliplatin using HCPCS code Cn05
effective July 1, 2003. The description for HCPCS code C9205 is "injection, oxaliplatin, per
5 [milligrams]." Therefore, for each 5 milligrams of oxaliplatin administered to a patient,
outpatient hospitals should have billed Medicare for one service unit during our audit period.

Effective January 1, 2006, CMS instructed hospitals to bill Medicare for oxaliplatin using
HCPCS code J9263. The service unit for that code is 0.5 milligrams.

INCORRECT NUMBER OF SERVICE UNITS BILLED

During CY 2005, Providence Alaska billed Medicare for an incorrect number of service units for
the one oxaliplatin outpatient claim that we reviewed. Providence Alaska billed 400 service
units for 200 milligrams of oxaliplatin administered instead of the appropriate 40 service units.
Medicare required billing one service unit for each 5 milligrams of oxaliplatin administered. For
the one claim, Providence Alaska received an overpayment of $31 ,098.

The overpayment occurred because the hospital did not follow established procedures to ensure
the proper billing of oxaliplatin.

RECOMMENDATIONS

We recommend that Providence Alaska:

   •   refund the $31,098 for the identified overpayment to the fiscal intermediary and

   @   ensure that service units of drugs billed correspond to units of drugs administered.

PROVIDENCE ALASKA COMMENTS

In its comments on our draft report, Providence Alaska concurred with our recommendations.
Providence Alaska stated that the fiscal intermediary had processed and recouped the identified
overpayment. In addition, Providence Alaska stated that it had put procedures in place to ensure
that service units of drugs billed correspond to units of drugs administered. Providence Alaska's
comments are included in their entirety as the Appendix.




                                                3

APPENDIX

                                                                                               APPENDIX





3760 !'lpet S~et
P.O. Bo;i( 19S604
~,AK99soa
t (9i)7) 562.l:m
WlMlll.prcvidene<!'.orgIaliilka




                                                                            PROVIDENCE
                                                                            Health & ~rvkes
       April 15.2009	                                                       Alaska



       Tom lin, &mior Auditor
       Office of Inspector GeI'I@mi, Offioo of Audit $eMC$$

       990 - 7'h Street, Suite 3-650

       San Fral'l€:illioo, CA 94103





      Dear Mr. lin:
     11'1 response to your letter of April 9, 2000 containing the draft report entitled

      ~Review  of Oxalipfatil'l BlUing at Providel'l<;el AJaska Medical Center for calendar

     Year 2005» we are writing to provide our written comtrlenta of COI'lOOITeI'lc:a wlth

     the recommendations and the status of the adiM$ we have taken.

     The draft I'8pOrt mcomvnencls refunding the identlfled overpayrnemt to the ~

     intermediary. The idel'ltffiad overpayment from 2005 has been processed

     through our fiscal il'ltermEldilry and the overpayment ~Llped.


     The draft report al$o reoomi'l'1el'laad ensuring lhat se~ units of drugs billed

     correspond to units ofdrugs administered. Our Pstlent Financial StU\I'k:e$ has

     put procedures In plaoo to ensure seroice mita of drugs billed cooospol'\d to UI'lit$

     of drugs administered.


    Shook:! you have q!.lEiStions or INish additional information. regarding this reql.l~.

    please contact me.





    Bruce LamollmWl:
    Chief~e
    Proviclifjl'lce Alaska Medical CMtel'

   XC:	 C©mpliMCe Office

             file

